Office of the Inspector General      Audit Report
                                  To the Senior Vice President,
                                  Procurement; and the Vice
                                  President and Controller




MANAGE SITE
MATERIAL INTERNAL
CONTROL REVIEW




Audit Team                                      Audit 2005-028F-01
Rick L. Taylor                                        June 15, 2005
Gregory R. Stinson
Memorandum from the Office of the Inspector General



June 15, 2005

Paul R. LaPointe, ET 5B-K
Randy P. Trusley, WT 5C-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2005-028F-01 – MANAGE SITE
MATERIAL INTERNAL CONTROL REVIEW



Attached is the subject final report for your review and management decision. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Rick L. Taylor, Senior Auditor, at (865) 632-7321 or
Louise B. Beck, Manager, Financial and Operational Audits, at (865) 632-2622. We appreciate
the courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RLT:SDB
Attachment
cc (Attachment):
     Franklin E. Alford, SP 1A-C
     Tom D. Kilgore, ET 12A-K
     Carla F. Lewis, ET 5B-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, ET 12A-K
     OIG File No. 2005-028F-01
Office of the Inspector General                                                      Audit Report




TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................... i

BACKGROUND .......................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ................... 1

FINDINGS .................................................................................... 2
   CYCLE COUNT .......................................................................... 3

   ACCESS TO MATERIAL INVENTORY....................................... 3

   RCTS ISSUES ............................................................................ 3

RECOMMENDATIONS ............................................................. 6




Audit 2005-028F-01
Office of the Inspector General                                       Audit Report




EXECUTIVE SUMMARY
We conducted an audit to assess controls over Tennessee Valley
Authority’s (TVA) Manage Site Material (MSM) inventoryi process.
Our audit included the controls in place as of June 8, 2005. According
to Procurement, as of April 30, 2005, TVA’s inventory of material was
about $319 million with typical annual inventory receipts of about
$150 million. TVA had 226 employees managing this inventory at
83 TVA locations.

In summary, we found:

•     Current inventory cycle count controls may not ensure inventory
      on-hand is accurately counted and entered into PassPort. During
      a Fraud Risk Assessment on inventory conducted by the Office of
      the Inspector General, Procurement personnel identified several
      potential scenarios in which cycle count results could be inaccurate
      or misstated with the possibility of going undetected. Since cycle
      count adjustments affect Procurement’s Operation and
      Maintenance costs (O&M) budget, Procurement’s Winning
      Performance goal of O&M could be influenced by inaccurate cycle
      count data.

•     In some warehouses, access to plant inventories is not restricted
      to Material Management Services (MMS) personnel or personnel
      escorted during non-standard work hours by MMS personnel as
      required by Procurement’s policy. Since most storerooms are not
      staffed by MMS personnel 24 hours a day seven days a week,
      some plant personnel have been granted access to material
      inventory. Additionally, Winning Performance goals could add
      incentives for plant personnel to take material without notifying
      Procurement of the items taken.

•     TVA’s Risk Control Tracking System (RCTS) could be updated to
      more accurately reflect key financial controls of the MSM process.
      The MSM process in RCTS should be updated to remove non-
      critical and operational control activities, combine like control
      activities, remove control activities related to scrap/surplus
      process, and add control activities considered to be part of the
      MSM process.



i
    For purposes of this report inventory means material inventory.
Audit 2005-028F-01                                                         Page i
Office of the Inspector General                                                  Audit Report



BACKGROUND
Tennessee Valley Authority’s (TVA) Materials Management Services
(MMS) within the Procurement organization is responsible for
managing TVA’s material inventory. As of April 30, 2005, TVA’s
inventory of material was about $319 million with typical annual
inventory receipts of about $150 million. TVA had 226 employees
managing this inventory at 83 TVA locations.

The primary objectives of the MMS process are to ensure
(1) inventory strategies are clearly defined, communicated to, and
understood by all employees; (2) inventory received is usable and
recorded accurately and timely; (3) only goods which have been
ordered are received and recorded in the appropriate period;
(4) inventory replenishment points are established; (5) inventory
performance is monitored against expected results; (6) all valid
charges to the inventory management master file are input and
processed accurately; (7) the cycle count strategy is defined,
documented, and communicated only to appropriate personnel;
(8) only usable material is included in inventory counts; (9) physical
inventory counts are performed for all items in inventory; and
(10) cycle count results are immediately and accurately entered.

In order to meet these ten primary objectives, Materials Management
policies and procedures require personnel to (1) review various
inventory reports to monitor inventory performance, (2) perform cycle
counts of material inventory and reconcile variances, (3) restrict
inventory access to authorized personnel, (4) enter material issues in
PassPort in a timely manner, and (5) review material returned to
ensure material is in adequate condition to be included in inventory.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess controls over the Manage Site Material
(MSM) inventory process. The scope of the audit was MSM process
controls as of June 8, 2005. However, we did not perform a detail
review of controls related to the scrap/surplus process because the
scrap/surplus process is currently under review, Audit 2005-015F. We
also included three control activities1 that were part of the Risk Control
Tracking System (RCTS) receive and inspect process. We believe
these three controls were better suited to be included in the MSM
1
  Control activity numbers H.2.E.1, H.2.E.3, and H.2.E.4 were controls that related to issues
  and returns of material which were better suited for the MSM process than the receive and
  inspect process.
Audit 2005-028F-01                                                                      Page 1
Office of the Inspector General                                Audit Report


process. We obtained an understanding of controls and processes
relating to managing site material inventory by:

•   Accessing RCTS to obtain all the related
    information/documentation for the MSM process.

•   Interviewing Procurement personnel to gain an understanding of
    the MSM process and obtain additional control documentation.

•   Using information obtained to document and flowchart the MSM
    process.

•   Conducting a walkthrough of the process with Procurement
    personnel to (1) confirm our understanding of the process and key
    control activities, (2) identify areas where process and/or control
    documentation needs to be prepared or updated, and (3) identify
    any additional mitigating control activities.

•   Participating in a Fraud Risk Assessment with Procurement and
    Office of the Inspector General Investigative personnel to identify
    possible fraud schemes and weaknesses in internal controls
    related to management site material inventory.

•   Using information obtained in the walkthrough and Fraud Risk
    Assessment to assess the control design and documentation.

This audit was performed in accordance with generally accepted
government auditing standards. Although we did not test for
compliance with laws and regulations, nothing came to our attention
during the audit that indicated noncompliance with laws and
regulations.


FINDINGS
We found the control design does not adequately ensure cycle count
data is accurate or restrict access. In addition, we noted TVA’s RCTS
could be updated to more accurately reflect key financial controls of
the MSM process. The MSM process in RCTS should be updated to
remove non-critical and operational control activities, combine like
control activities, remove control activities related to scrap/surplus
process, and add control activities considered to be part of the MSM
process.


Audit 2005-028F-01                                                  Page 2
Office of the Inspector General                                Audit Report



CYCLE COUNT
Current inventory cycle counts process may not ensure inventory on-
hand is accurately counted and entered into PassPort because the
control activities would not necessarily detect if Procurement
personnel: (1) overstated the actually quantity counted, (2) scrapped
items that were missing, (3) created issue tickets for missing items,
(4) listed missing items as being included with other transfers to
Hartsville, or (5) entered the quantity on-hand listed in PassPort as the
cycle count result without actually performing a count of the item.
Since cycle count adjustments affect Procurement’s Operation &
Maintenance costs (O&M) budget, Procurement’s Winning
Performance goal of O&M could be influenced by Procurement
personnel not reporting cycle count shortages.

ACCESS TO MATERIAL INVENTORY
Access to some plant inventories is not restricted to MMS personnel
or personnel escorted by MMS personnel as required by
Procurement’s policy. Since most storerooms are not staffed by MMS
personnel 24 hours a day, some plant personnel have been granted
access to material inventory. There is no policy or procedure to
ensure material taken is entered into PassPort when MMS personnel
are not present. Additionally, Winning Performance goals could add
an incentive for plant personnel to take material without notifying
Procurement of the items taken. The items taken will not be charged
to the plant’s O&M budget but will be charged to Procurement’s O&M
budget when the shortage is identified. This aids a business unit in
meeting its Winning Performance goals in relation to O&M budget.

RCTS ISSUES
We identified the following issues concerning the MSM process
documentation in RCTS:

•   RCTS MSM process should be updated to delete the following
    non-critical controls. We discussed these controls with
    Procurement management and they agreed these are not key
    financial controls.

    1. “The inventory placement requirements and cycle count criteria
       are developed in accordance with the ABC strategy” is not a
       key control because all items are counted with the same
       frequency (at least once every 24 months). (RCTS Control
       Number H.1.A.1)
Audit 2005-028F-01                                                  Page 3
Office of the Inspector General                               Audit Report


    2. “Recorded changes to inventory master file data are compared
       to authorized source documents to ensure that they were input
       accurately” is not performed but there are other mitigating
       controls to address this issue. (RCTS Control Number H.1.F.2)

    3. “Inventory aging reports are prepared and analyzed prior to
       inventory cycle counts” is not performed by Procurement.
       (RCTS Control Number H.1.H.1)

    4. “Access to create, modify, and print physical inventory
       documents for cycle counting is restricted to authorized
       personnel” is not considered a key control of Procurement
       because access to PassPort is controlled by Information
       Systems. (RCTS Control Number H.1.I.1)

    5. “Access to Usage Based ABC Analysis is restricted to
       authorized personnel” is not a key control because all items
       are counted with the same frequency (at least once every
       24 months). (RCTS Control Number H.1.I.2)

    6. “Transactions for goods received at, before, or after the end of
       an accounting period are scrutinized and/or reconciled to
       ensure complete and consistent recording in the appropriate
       period” is not considered a key control for Procurement
       because Chief Financial Officer’s organization is responsible for
       ensuring transactions are recorded in the appropriate time
       period. (RCTS Control Number H.1.C.1)

•   RCTS MSM process should be updated to delete the following
    controls determined to be operational controls. We discussed
    these controls with Procurement management and they agreed
    these are operational controls.

    1. “Stock replenishment policies are periodically reviewed to
       ensure policies meet changing company needs.” (RCTS
       Control Number H.1.C.2)

    2. “Stock level policies are established to include replenishment
       cycles, safety stock levels, slow moving inventory, etc., and the
       plan has been communicated to the appropriate personnel.
       Policies are periodically reviewed for continued applicability.”
       (RCTS Control Number H.1.D.1)




Audit 2005-028F-01                                                  Page 4
Office of the Inspector General                                 Audit Report



•   RCTS MSM process should be updated to combine the following
    controls. The controls listed under item number one should be
    combined because they all address the documentation and
    communication of policies and procedures. The controls listed
    under item number two relate to cycle count controls that can be
    combined into one key control.

    1. The following four controls should be combined into one overall
       control related to communicating policies and procedures. “The
       procurement strategy, as well as any detailed criteria for
       making purchases and utilization of intercompany transfers, is
       documented and communicated by management to the
       appropriate personnel to ensure all purchasing actions and
       decisions are consistently performed” (RCTS Control Number
       H.1.A.2); “Procedures on how to run the analysis reports for
       cycle counting and how often the cycle count indicators for
       materials are reset have been developed and communicated to
       the appropriate personnel” (RCTS Control Number H.1.G.1);
       “The cycle count strategy, as well as any detailed criteria for
       cycle counts, is documented and communicated by
       management to the appropriate personnel to ensure all cycle
       count actions and decisions are consistently performed”
       (RCTS Control Number H.1.G.2); and “A procedure has been
       established and communicated guiding the material issue
       process. The procedure includes that the material is required
       to be issued to an order (transfer, work, disposal, etc.) within an
       established time period after the inventory has been picked”
       (RCTS Control Number H.2.E.4).

    2. The following four controls should be combined into one overall
       key control relating to cycle counts. “Management reviews and
       approves all recorded adjustments to inventory prices,
       quantities, and qualities” (RCTS Control Number H.1.J.1);
       “Policies for reviewing any inventory differences and related
       decision making have been established and communicated.
       The List of Inventory Differences Report and necessary
       recounts are reviewed and approved by the plant management
       after counts are entered into PassPort and prior to posting a
       difference in the general ledger” (RCTS Control Number
       H.1.J.3); “All cycle count variances are reconciled and
       approved by someone other than the counter (Foreman or
       higher position) before the quantity is accepted. Corrective
       actions are identified if necessary” (RCTS Control Number
       H.1.J.4); and “Inventory counts are reconciled to inventory
       records” (RCTS Control Number H.1.J.5).

Audit 2005-028F-01                                                   Page 5
Office of the Inspector General                                 Audit Report



•   Although we did not perform a detailed review of the scrap/surplus
    controls, we determined the scrap/surplus controls warrant a
    separate process and should not be included in the MSM process.
    The controls include: “management reviews reports of slow-
    turnover material to ensure that it is still usable” (RCTS Control
    Activity H.1.B.1); “Procedures related to scrap, surplus, or obsolete
    material (including the negotiation process and relevant
    authorizations needed to complete the disposal, the parameters
    that indicate an item is to be disposed, definitions of disposal
    categories, and documentation required for final issue or delivery
    of disposed inventory) have been established and communicated
    to all affected personnel” (RCTS Control Activity H.1.H.3); “Write
    off quantity is determined in accordance with policies by authorized
    personnel and documented appropriately. Reasons for writing
    material off are shelf life expiration, damage, no need within the
    corporation, no value, or the material is obsolete” (RCTS Control
    Activity H.1.H.4); and “Management reviews inventory records for
    impairment whenever events or changes in circumstances indicate
    that the carrying amount of an asset may not be recoverable”
    (RCTS Control Activity H.1.J.2).

•   RCTS MSM process should be updated to include control activities
    from the RCTS Receive and Inspect process related to issues and
    returns of material. Procurement Management agreed these three
    control activities should be included in the MSM process. These
    controls included: “All internal issuances and returns are
    accompanied by the appropriate documentation, including the
    original issue document or properly completed credit issue
    document” (RCTS Control Activity H.2.E.1); “The actual quantity of
    each material that is physically picked for a pick ticket is entered in
    the system only by authorized personnel“ (RCTS Control Activity
    Number H.2.E.3); and “A procedure has been established and
    communicated guiding the material issue process. The procedure
    includes that the material is required to be issued to an order
    (transfer, work, disposal, etc.) within an established time period
    after the inventory has been picked (RCTS Control Activity Number
    H.2.E.4).


RECOMMENDATIONS
We recommend Procurement implement additional monitoring
activities to ensure the cycle count and storage access controls
operate as intended.

Audit 2005-028F-01                                                   Page 6
Office of the Inspector General                           Audit Report


In addition, we recommend Procurement take corrective action to
address the RCTS issues described above.




Audit 2005-028F-01                                             Page 7
